OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/NICARAGUA’S
HIV/AIDS PREVENTION
PROGRAM
AUDIT REPORT NO. 1-524-14-011-P
JULY 18, 2014




SAN SALVADOR, EL SALVADOR

Office of Inspector General


July 18, 2014

MEMORANDUM

TO:       	          USAID/Nicaragua Mission Director, Arthur W. Brown

FROM: 	              Acting Regional Inspector General/San Salvador, David Clark /s/

SUBJECT:	            Audit of USAID/Nicaragua’s HIV/AIDS Prevention Program
                     (Report No. 1-524-14-011-P)

This memorandum transmits our final report on the subject audit. We considered your
comments on the draft report and included them, without annexes, in Appendix II of this report.

This report includes seven recommendations to help USAID/Nicaragua manage its HIV/AIDS
Prevention Program and other crosscutting issues. Written comments in response to the draft
report indicate the mission made management decisions on all seven recommendations and
took final action on Recommendations 1 through 4 and 6 through 7. Please provide the Audit
Performance and Compliance Division in the USAID Office of the Chief Financial Officer with
the necessary documentation to achieve final action on the remaining recommendation.

Thank you and your staff for the cooperation and assistance extended to us during this audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Finding ............................................................................................................................... 4 


     Implementer Did Not Provide Training to Improve Grantees’ Data
     Management Skills .................................................................................................................. 4 


Other Matters

     USAID/Nicaragua Did Not Validate Data the Implementer Entered Into the
     Training Record System.......................................................................................................... 6 


     USAID Did Not Provide Counter-Trafficking-in-Persons Guidance to Implementers .............. 7 


Evaluation of Management Comments ..................................................................................... 9 


Appendix I—Scope and Methodology .................................................................................... 10 


Appendix II—Management Comments ................................................................................... 12 





Abbreviations

The following abbreviations appear in this report:

ADS                   Automated Directives System
C-TIP                 counter-trafficking in persons
NGO                   nongovernmental organizations
PrevenSIDA            Preventing Transmission of HIV/AIDS From High Risk Groups in Nicaragua Program
TraiNet               Training Results and Information Network
URC                   University Research Co. LLC
SUMMARY OF RESULTS 

Although the prevalence rate of HIV/AIDS in Nicaragua is very low—affecting around
0.2 percent of the population—the rate for men who have sex with men, who make up 15
percent of people living with HIV/AIDS in the country, is higher.1 Commercial sex workers and
transvestites are also at high risk, with transvestites having the highest rate.

In the past 10 years, nongovernmental organizations (NGOs) in Nicaragua have provided most­
at-risk groups with education, counseling, and testing, and advocated for them with the national
government. However, most of these NGOs lack the structure, administrative capacity, and
financial management skills to be sustainable. They also lack the means for coordinating their
efforts, leading to some duplication of work and preventing the most effective use of their
financial resources.

To help reduce the transmission of HIV/AIDS by most-at-risk populations and strengthen the
NGOs that serve them, USAID/Nicaragua signed a 5-year, $5 million cooperative agreement
with University Research Co. LLC (URC) on September 20, 2010, to implement the Preventing
Transmission of HIV/AIDS From High Risk Groups in Nicaragua Program (known as
PrevenSIDA). The mission extended this award through September 20, 2016, and increased its
value to $7 million. As of February 20, 2014, cumulative obligations totaled $4.95 million and
disbursements, $3.75 million.

PrevenSIDA’s goal is “to increase healthy behaviors in order to reduce HIV/AIDS transmission”
among high-risk groups and to the population at large. To achieve this, the program intends to
accomplish four results:

1. 	 Strengthen the institutional capacity of at least 20 local NGOs to participate in the HIV/AIDS
     national response plans.

2. 	 Improve access to and the quality of HIV/AIDS preventive services.

3. 	 Reduce stigma and discrimination against most-at-risk populations and people living with
     HIV/AIDS.

4. 	 Improve the advocacy of NGOs representing most-at-risk populations and people living with
     HIV/AIDS in the national response to HIV/AIDS.

The Regional Inspector General/San Salvador conducted this audit to determine whether the
program was achieving its main goal of increasing healthy behaviors to reduce HIV/AIDS
transmission among members of these most-at-risk populations and to the population at large.

The program was on target to achieve the four primary results. The mission will commission a
final evaluation at the end of the program to determine the extent to which these activities
changed behavior among these key populations. In 2016, the Centers for Disease Control and
Prevention will conduct an independent survey to determine whether HIV/AIDS programs in the
country have reduced HIV transmission among members of most-at-risk populations.

1
    Based on Nicaraguan Ministry of Health’s epidemiological reports for 2009.



                                                                                                 1
By the end of the third year, the program had surpassed many of its indicator targets and was
on track to meet all its end-of-program results, as shown in the following table.

      Selected Indicators, Targets, and Results as of September 30, 2013 (Audited)
                                                                      Cumulative      Reported
      Result                        Indicator
                                                                        Target         Result
                1. Number of NGOs that developed and
                   implemented their institutional capacity-       At least 20             33
                   building plans
     Result 1
                2. Number of NGOs’ staff trained and provided
                   with technical assistance on HIV-related        More than 200          189
                   topics
                3. Number of NGOs’ staff trained in preventive
                                                                   At least 200           204
                   services
                4. Number of NGOs providing appropriate
                   behavior-change communication, counseling
                                                                   More than 20            21
                   and testing, condom provisions, and other
                   prevention services
     Result 2   5. Number of MARPs [members of most-at-risk
                   populations] reached through community
                                                                   At least 37,000     69,425
                   outreach activities that promote HIV/AIDS
                   prevention
                6. Number of contacts reached through
                   community outreach activities that promote      At least 155,000   119,314
                   HIV/AIDS prevention
                7. 	 Number of NGOs’ staff trained in strategies
                     and educational tools to reduce stigma and           100             110
                     discrimination
     Result 3
                8. 	 Number of NGOs who have implemented
                     and evaluated annual plans to reduce stigma   More than 20            15
                     and discrimination
                9. Number of NGOs’ staff trained in effective
                     techniques and strategies to improve
                     participation of MARPs and people living      More than 200          114
                     with HIV/AIDS in the national response to
     Result 4        HIV/AIDS

                10. Number of NGOs provided with technical
                    assistance on HIV-related policy               Approximately 20        16
                    development


In addition, 13 of the 33 NGOs that URC has worked with have demonstrated significant
improvement in administrative and financial controls to continue independently after the
program ends. USAID and other donors have acknowledged their progress and have begun to
provide many of them with funding.

Because of the significant progress, USAID/Nicaragua and URC raised the program’s targets.
For example, URC increased from 20 to 50 the number of assisted NGOs that will develop and
implement a capacity-building plan, and from 200 to 300 the number of NGO staff URC will train
on HIV-related topics. URC also agreed to develop additional activities for lesbians, gays,
bisexuals, and transvestites, and expanded the program to the entire country to reach more


                                                                                                 2
people affected by HIV/AIDS.

Despite the program’s success, one area was weak. URC did not provide training to improve
grantees’ data management skills (page 4). Some grantees submitted substandard data to
URC. Not having good data management skills could jeopardize these grantees’ ability to be
sustainable after USAID assistance ends.

Auditors also found that:

	 USAID/Nicaragua did not validate data that URC entered into the Training Results and
   Information Network (TraiNet) (page 6). URC entered incorrect training numbers because it
   had not defined what constitutes a person trained for each module. In addition, USAID did
   not have a coordinator to provide guidance on how to use and monitor TraiNet.

	 USAID/Nicaragua         did not provide counter-trafficking-in-persons guidance to its
   implementers (page 7). The Agency has a field guide but has not instructed missions to
   distribute it to implementers, who are more likely than mission personnel to encounter
   victims of trafficking.

The report recommends that USAID/Nicaragua:

1. 	 Work with URC to provide technical assistance, training, and guidelines to grantees on
     data verification and quality control, and document all such activities (page 4).

2. 	 Work with URC to distribute to grantees best practices and lessons learned on using the
     database (page 5).

3. 	 Work with URC to define which participants to count as trained for each module, and
     update TraiNet to reflect this new definition (page 6).

4.	 Provide and document training for its staff on using and monitoring TraiNet (page 6).

5. 	 Establish a process to validate data that implementers enter into TraiNet (page 6).

6. 	Give all implementers the Counter-Trafficking in Persons Field Guide, which includes
    guidance for reporting suspected cases of trafficking through the Office of Inspector
    General Hotline, and document the distribution (page 7).

7. 	 Disseminate a fact sheet highlighting services available in Nicaragua that assist victims
     of trafficking and other people in need, and document its actions (page 8).

The detailed finding follows, along with other matters. The audit scope and methodology are
described in Appendix I. Our evaluation of USAID/Nicaragua’s management comments appears
on page 9; the mission’s comments, minus annexes, appear in Appendix II.




                                                                                                 3
AUDIT FINDING
Implementer Did Not Provide Training to
Improve Grantees’ Data Management Skills
The agreement called on URC to improve managerial capabilities of NGOs working to prevent
the spread of HIV/AIDS among the most-at-risk populations. Through URC’s training and
technical assistance, the NGOs would sharpen their decision-making abilities and management
skills and prepare to play a larger role in HIV prevention efforts throughout Nicaragua. As part of
this effort, URC was to establish an information system to collect data, then document and
disseminate lessons learned and best practices for using the database.

Accordingly, URC developed a contact database for NGOs that it gave grants to. These
grantees enter data on their work with most-at-risk populations and generate reports, which the
database transmits to URC monthly. URC relays the information to USAID, which relies on it for
managing the program. According to Automated Directives System (ADS) 203.3.11.1, “Data
Quality Standards,” to help USAID with performance monitoring and decision making, data
should be valid (i.e., should “clearly and adequately represent the intended result”) and reliable.

However, URC did not provide training or guidance to the grantees on how to check for errors in
the database. For example, new employees at the 11 NGO offices visited did not know how to
update information, correct errors, or run reports. Although experienced monitoring and
evaluation specialists at some of these grantee organizations were familiar with the database
operations and had established their own quality controls, the newer specialists did not know
how to verify data.

As a result, some grantees were reporting inaccurate information to URC. While URC
subsequently verified and corrected these reports to ensure that data provided to USAID were
accurate, it did not provide training and technical assistance to improve the NGOs’ data
management skills. Instead, URC officials said, they have worked since the development of the
database in 2011 to make it usable, adding new tools to help grantees with data quality.

Furthermore, although URC was supposed to compile lessons learned and best practices on
using the database for the grantees, it had not done so. URC officials said they had focused on
other aspects of the program, such as the best way to identify locations where most-at-risk
populations congregate.

Without accurate and reliable information, URC and the mission cannot make informed decisions.
Although URC checked the data for accuracy, by not teaching grantees to use the database
correctly and verify data themselves, URC was jeopardizing their ability to function independently
after USAID assistance ends. Therefore, we make the following recommendations.

   Recommendation 1. We recommend that USAID/Nicaragua work with University
   Research Co. LLC to provide technical assistance, training, and guidelines to grantees
   on data verification and quality control, and document all such activities.




                                                                                                 4
Recommendation 2. We recommend that USAID/Nicaragua work with University
Research Co. LLC to distribute to grantees best practices and lessons learned on using
the database.




                                                                                         5
OTHER MATTERS
USAID/Nicaragua Did Not Validate Data
the Implementer Entered Into the
Training Record System
ADS 253.3, “Policy Directives and Required Procedures,” states that all USAID units involved in
funding or managing training must “design, implement, and track the training or program event
for results and impact,” and “report on their Participant Training activities as part of their broader
performance measurement (monitoring), evaluation, and reporting requirements.” The units
must enter into TraiNet information on any training lasting at least 2 days or 16 hours, according
to ADS 253.3.4.5, “Monitoring and Reporting.” In addition, the units must verify that participants
are “regularly attending scheduled activities or sessions of a technical program.”

URC hired two subcontractors to provide training to NGOs on managerial skills and HIV/AIDS
prevention activities and monitor the day-to-day activities. The training program consisted of
various modules, each requiring 1 to 3 days to complete. Participants had to complete
80 percent of the program to receive a certificate of completion.

The training was delivered as planned, but the record keeping for the training was flawed for two
reasons. URC did not use the subcontractors’ sign-in-sheets, which contained accurate
information on who attended each day. Instead, it relied on its own, less detailed sign-in sheets.
Moreover, URC did not define what constituted a person trained for each module—i.e., how
much of each module a person had to complete. It simply counted participants who completed
1 day of a module lasting multiple days as having completed the entire module. When auditors
asked for documentation, URC could not produce all of its sign-in sheets. The sheets it made
available had incomplete data that did not fully support the number of participants reported in
TraiNet and did not show which days participants attended.

USAID did not monitor training and did not detect that URC had recorded inaccurate information
in TraiNet. Mission officials said the person on staff who had monitored and provided guidance
on TraiNet left the mission. The mission has since appointed a new TraiNet coordinator, but
officials said that all staff need more TraiNet training to verify that the information entered into
TraiNet by implementers is correct.

Without defining what constitutes a trained participant, the program risks entering inaccurate
data into TraiNet. Inaccurate training data will not allow the mission to assess whether the
training is advancing the program’s goal. Therefore, we make the following recommendations.

   Recommendation 3. We recommend that USAID/Nicaragua work with University
   Research Co. LLC to define which participants to count as trained for each module, and
   update the Training Results and Information Network to reflect this new definition.

   Recommendation 4. We recommend that USAID/Nicaragua provide and document
   training for its staff on using and monitoring the Training Results and Information Network.

   Recommendation 5. We recommend that USAID/Nicaragua establish a process to
   validate data that implementers enter into the Training Results and Information Network.



                                                                                                    6
USAID/Nicaragua Did Not Provide
Counter-Trafficking-in-Persons
Guidance to Implementers
USAID has identified trafficking in persons as a massive development problem affecting millions
of men, women, and children. According to its Counter-Trafficking in Persons and
Contractor/Recipient Compliance, an Agency-wide standard operating procedure, USAID is
working to demonstrate its leadership in countering trafficking. In its 2012 Counter-Trafficking in
Persons Policy, USAID lists its five C-TIP objectives, one of which is providing training and
coordination to enhance institutional accountability for combating trafficking.

The standard operating procedure states that USAID must “equip personnel with the necessary
knowledge and tools to recognize, report, and address human trafficking offenses.” Moreover,
USAID’s Guidance on the Implementation of the Counter Trafficking in Persons (C-TIP) Code of
Conduct (a mandatory reference for ADS 201, 203, 302, and 303) states that USAID employees
will receive general training to raise “their awareness of human trafficking and its many
manifestations.”

However, the mission has not provided any guidance or training on C-TIP to its implementers.
Furthermore, 7 out of the 11 grantees visited reported being aware of trafficking or potential
victims of trafficking, yet only 1 of those NGOs reported receiving any orientation from URC on
how to recognize and respond to trafficking situations.

The grantees did not receive C-TIP guidance because USAID has offered its C-TIP training to
USAID employees only and does not have any guidance or training specifically for
implementers or those working for them. In April 2013, the Agency released its Counter-
Trafficking in Persons Field Guide, but did not instruct missions to disseminate it
to implementers. Furthermore, the Agency has not trained an important segment of its own work
force: a recent OIG review of USAID’s C-TIP program2 found that missions’ C-TIP coordinators
were unaware of their roles and responsibilities for providing training or guidance to
implementing partners. Coordinators did not receive training on their responsibilities, including
training implementing partners.

While USAID/Nicaragua staff make occasional visits to field sites, implementers are in the field
observing the day-to-day activities of the Agency’s beneficiaries. The implementers and those
working for them therefore are more likely to observe instances of trafficking and would
therefore benefit from training and guidance. Therefore, disseminating the field guide to the
implementers would help extend protection to those most vulnerable to trafficking in Nicaragua
and contribute to meeting USAID’s C-TIP objectives.

    Recommendation 6. We recommend that USAID/Nicaragua give all implementers the
    Counter-Trafficking in Persons Field Guide, which includes guidance for reporting
    suspected cases of trafficking through the Office of Inspector General Hotline, and
    document the distribution.



2
  Review of USAID’s New Counter-Trafficking in Persons Program, Report No. 9-000-14-001-S,
November 27, 2013.



                                                                                                 7
Recommendation 7. We recommend that USAID/Nicaragua disseminate a fact sheet
highlighting services available in Nicaragua that assist victims of trafficking and other
people in need, and document its actions.




                                                                                            8
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Nicaragua agreed with all seven recommendations. Based on comments from the
mission and supporting documentation, management decisions have been reached on all seven
recommendations, with final action taken on Recommendations 1 through 4 and 6 through 7.
Our detailed evaluation of management comments follows.

Recommendation 1. USAID/Nicaragua agreed to work with URC to develop a validation and
implementation training guide and provide training to the grantees to improve data verification.
This process was completed in May 2014. We acknowledge the mission’s management
decision and final action on this recommendation.

Recommendation 2. USAID/Nicaragua agreed to work with URC to compile a best practice
and lessons learned manual on using the database. URC shared the manual with grantees
during a lessons learned session held in May 2014. We acknowledge the mission’s
management decision and final action on this recommendation.

Recommendation 3. USAID/Nicaragua agreed to work with URC to define which participants to
count as trained for each module and to update TraiNet accordingly. With URC, the mission
reviewed all training entered into TraiNet to identify errors using The President’s Emergency
Plan for AIDS Relief’s definition of a trained person. The mission verified that, as of May 2014,
URC had updated all TraiNet records entered under the program to reflect this change. We
acknowledge the mission’s management decision and final action on this recommendation.

Recommendation 4. USAID/Nicaragua agreed to coordinate TraiNet training for its
administrative assistant in April 2014 and for its implementers in May 2014. The mission
provided documentation showing that the training took place. We acknowledge the mission’s
management decision and final action on this recommendation.

Recommendation 5. USAID/Nicaragua agreed to establish a process to validate data that
implementers enter into TraiNet. The mission held a TraiNet training course for all implementers
in May 2014, and agreement officer’s representatives were in the process of validating TraiNet
data entered by the implementers. In addition, the mission was in the process of hiring a training
coordinator who will be responsible for data validation. The mission expected to complete this
task by September 30, 2014. We acknowledge the mission’s management decision.

Recommendation 6. USAID/Nicaragua agreed to give all implementers the Counter-Trafficking
in Persons Field Guide. The mission e-mailed the C-TIP Field Guide to all of its implementers in
June 2014. We acknowledge the mission’s management decision and final action on this
recommendation.

Recommendation 7. USAID/Nicaragua agreed to disseminate a fact sheet highlighting services
available in Nicaragua to victims of trafficking and other people in need. In coordination with
URC, the mission compiled the fact sheet, made it available to the public through PrevenSIDA’s
Web site in May 2014, and in June 2014 e-mailed it to its implementers. We acknowledge the
mission’s management decision and final action on this recommendation.



                                                                                                9
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of the audit was to determine whether USAID/Nicaragua’s PrevenSIDA was
achieving its main goal of increasing healthy behaviors to reduce HIV/AIDS transmission among
the most-at-risk populations and to the population at large.

The mission awarded URC a 5-year, $5 million cooperative agreement to implement
PrevenSIDA. The award was extended for another year (total of 6 years) and increased to
$7 million. As of February 20, 2014, cumulative obligations and disbursements for URC totaled
$4.95 million and $3.75 million, respectively.

The audit covered program activities from inception through February 27, 2014, and 11 grant
activities worth approximately $800,000. Auditors conducted fieldwork from February 3 through
February 13, 2014, and from February 25 through February 27, 2014, in Managua, León,
Matagalpa, and Región Autónoma del Atlántico Sur.

As part of the audit, we assessed the significant internal controls the mission used to monitor
the program. The assessment included controls to determine whether the mission (1) conducted
and documented site visits to evaluate progress and monitor quality, (2) reviewed and approved
required deliverables, and (3) performed data quality assessments and portfolio reviews.
Additionally, we reviewed the mission’s annual certification required by the Federal Managers’
Financial Integrity Act of 1982, 31 U.S.C. 3512, to verify whether the assessment cited any
relevant weaknesses. We reviewed prior audit reports on HIV/AIDS prevention for any issues
related to the audit objective.

Methodology
To answer the audit objective, we evaluated the mission’s management and oversight of the
programs, the performance of URC, and the effectiveness and sustainability of the activities. We
met with various USAID/Nicaragua officials, including the agreement officer’s representative and
various program office staff. We held numerous meetings with URC staff, including the chief of
party, monitoring and evaluation personnel, and financial staff; subcontractors; and grantees.
We also interviewed Peace Corps staff.

To gain an understanding of the program, the audit team reviewed the mission’s cooperative
agreement, its modifications, and the performance monitoring plans. During fieldwork at the
mission and site visits to the implementer’s, subcontractors’, and grantees’ locations, we verified
reported progress and compared it with actual achievements. Specifically, we reviewed URC’s
work plans, progress reports, environmental documents, branding and marking plan, and
training records. We also evaluated its use of the contact database, tracking of commodities
such as condoms and rapid test results, compliance with USAID’s prohibition of assistance to



                                                                                                10
                                                                                      Appendix I


drug traffickers, disposal of medical waste, and gender integration in program activities. We
reviewed applicable policies and procedures pertaining to USAID/Nicaragua’s implementation of
the program, such as ADS and selected mission orders.

We visited 11 of the 28 grantees who were provided funding for FY 2014. We used a
judgmental sample rather than a statistical sample for site visits. The sample selection was
based on an analysis of factors such as travel time to location, grant amount, and the target
population that grantees were working with. The final itinerary was refined through discussions
with USAID/Nicaragua and the implementer. During site visits, we validated the use of funds
and existence of sites and activities; verified controls over commodities; and documented
aspects of monitoring, reporting, and compliance with environmental requirements. Since a
statistical sample was not used, the sample results cannot be projected to the entire population.




                                                                                              11
                                                                                      Appendix II



MANAGEMENT COMMENTS 



MEMORANDUM

DATE:          June 6, 2014

TO:            Regional Inspector General/San Salvador, Jon Chasson

FROM:          Acting Mission Director, Kenneth Maclean

TRHOUGH: Director Office of Financial Management, Virginia Prudo

SUBJECT:       Audit of USAID/Nicaragua’s HIV/AIDS Prevention Program
               (Report No. 1 524-14-00X-P)

REF:           Jon Chasson /Arthur Brown memo, dated May 8, 2014


Following are the Mission’s management decisions and corrective actions for the seven
recommendations contained in the subject audit report:

Recommendation No. 1: We recommend that USAID/Nicaragua work with University Research
Co. LLC to provide technical assistance, training, and guidelines to grantees on data verification
and quality control, and document all such activities.

Following are the USAID/University Research Co. LLC (URC), corrective actions taken to
comply with the recommendation on data verification and quality control to grantees:

1. 	    Design of a data quality managing system in order to develop, validate and implement a
        single record system for the services produced by the project, including a training
        records´ module according to PEPFAR definitions.

        Implementation date: March 31, 2014

        Support documentation: Annex 1. A 56 page of the “Registro único de identificación de
        Poblaciones En Mas Alto Riesgo (PEMAR) y “Personas Viviendo con VIH” (PLWVIH)
        English acronym”.

2. 	    Develop, validate and implement a training methodology guide for the implementation of
        the single record system.


                                                                                               12
                                                                                           Appendix II



       Implementation date: March 31, 2014

       Support documentation: Annex 5 – Reportes de capacitación y lista de ONGs con
       Sistema Automatizado de Registro Único (Training reports and list of local NGOs with
       the Automated Registry System, installed).

3. 	   Develop, validate and implement a data quality verification guide.

       Implementation date: March 2014.

       Support documentation: Annex 2 - 12 training reports completed from February through
       May 2014.

4. 	   Implement systematic mechanisms for data quality verification as part of the Monitoring
       and Evaluation process of the Project.

       Implementation date: February 2014.

       Support documentation: Annex 3 – Monitoring and Evaluation tool (page 2/6)

Recommendation No. 2: We recommend that USAID/Nicaragua work with University Research
Co. LLC to distribute best practices and lessons learned on using the database to grantees.

URC implemented a national workshop in May 2014, with participation of 20 NGOs receiving
sub-grants to share and distribute NGOs best practices, lessons learned on using the database.
This activity included the dissemination of standardized instruments for collection, recording,
and data verification through collaborative learning of data quality. In order to ensure a proper
dissemination of the information, URC implemented:

1) 	   A methodological design in April 2014 (Annex 4);

2) 	   A learning session to improve data quality in the NGOs monitoring system (Annex 5)

3) 	   A website for success stories in May 2014. Please see link attached
       (http://www.prevensida.org.ni/images/stories/documentos_pdf/pasos_para_el_abordaje_del_trfico_de
       _personas_versin%20_final.pdf)

Recommendation No. 3: We recommend that USAID/Nicaragua work with University Research
Co. LLC to define which participants to count as trained for each module and update the
Training Results and Information Network to reflect this new definition.

The following steps were taken to implement the corrective action:

1. 	   Organize and review, in a single document, the project´s training strategy including all
       operational definitions of all past trainings as well as those planed in the future,
       standardizing the definitions of TraiNet with those of PEPFAR. Note: There are three


                                                                                                     13
                                                                                       Appendix II


       categories of general definitions for PEPFAR (H21D, H22D and H3DD) and 25
       operational definitions according to methodological designs. Prevensida’s project training
       strategy documentation was verified by the AOR at URC’s office, this review was
       finalized on April 15, 2014.

2. 	   Organize and review all quarterly training report files for the period October 2010 to
       May, 2014, ensuring the inclusion of the operational definition for training in their
       respective methodological designs. Prevensida’s TraiNet quarterly reports were verified
       by the AOR at URC’s office, the review was finalized on May 6, 2014.

3. 	   As a result of the above, the AOR conducted a review of PrevenSida TraiNet reports for
       FYs 2013/2014 on May 21, 2014; and a conciliation of PrevenSida TraiNet report for
       FYs 2011/2012 that concluded on May 20, 2014. See TraiNet reconciliaciónF12, FY13,
       FY14 Q1 y Q2 (Annex 6). The results of the review revealed that the initial verifications
       had limitation in the register of the data. Unified criteria for approving registration
       information were achieved after the reconciliation.

4. 	   Additionally, on May 8, 2014, nine Prevensida Technical Staff were trained on TraiNet
       with the purpose of unifying the correct criteria for the data to be uploaded into TraiNet.
       (Annex 8)

Recommendation No. 4: We recommend that USAID/Nicaragua provide and document training
for its staff on using and monitoring the Training Results and Information Network.

The following steps were taken to implement the corrective action:

1.	    USAID/Nicaragua coordinated a VTC TraiNet training with USAID/Washington, six
       staff involved in the participant training process were trained on June 28, 2013.
       (Annex 7).

2.	    USAID/Nicaragua coordinated a VTC TraiNet training with USAID/Washington on
       April 24 and 25, 2014 for Administrative Assistant. (Annex 7.1)

3.	    USAID/Nicaragua conducted, a classroom TraiNet-VCS refresher training on May 6-8,
       2014, for the Mission's Partners who have the role of Initiator (R1), and Verifier (R2) in
       the Participant Training Program. See agenda and invitation email submitted on April 30,
       2014. (Annexes 8 and 8.1)

Recommendation No. 5: We recommend that USAID/Nicaragua establish a process to validate
data that implementers enter into the Training Results and Information Network.

USAID/Nicaragua is in the process of validating data that implementers enter into the TraiNet.
Based on the audit experience, a process for data validation was developed by the AOR for
Prevensida to be adopted by all USAID implementing partners. A Mission partner’s training will
be conducted on the process. In addition, the Mission is in the process of hiring a GDO




                                                                                                 14
                                                                                          Appendix II


Administrative Assistant who will act as participant training coordinator and responsible for data
validation.

Expected completion due date:          September 30, 2014

Recommendation No. 6: We recommend that USAID/Nicaragua give all implementers the
Counter-Trafficking in Persons Field Guide, which includes guidance for reporting suspected
cases of trafficking through the Office of Inspector General Hotline, and document the
distribution.

Following the corrective action:

USAID/Nicaragua will submit via e-mail the Counter-Trafficking in Persons (CTP) Field Guide,
along with the factsheet to all implementing partners.

Expected completion due date:          June 30, 2014

Recommendation No. 7: We recommend that USAID/Nicaragua disseminate a fact sheet
highlighting services available in Nicaragua that assist victims of trafficking and other people in
need, and document its actions:

PrevenSida and USAID/Nicaragua developed, validated and is in the process to disseminate 500
copies of the “Identificacion y referencia de casos de tráfico de personas” (fact sheet). Annex 9.
Additionally, the fact sheet was published in the web page of PrevenSida. The fact sheet will also
be distributed via email to all implementers.
(http://www.prevensida.org.ni/index.php?option=com_k2&view=item&id=153:identificación-y-referencia-de­
casos-de-tráfico-de-personas)

Completion due date: 	                 May 21, 2014 (web version) - May 2014 (printed version)

Based on the corrective actions taken, evidenced by the support documentation, and except for
Recommendations No. 5 and No. 6, we consider the rest of recommendations as closed.

cc: 	   Natalie Thunberg, RAO
        Allen Vargas, R/Controller
        Marianela Corriols, AOR
        Angela Cardenas, Director of GDO

List of Annexes:
Annex 1. Registro único de identificación de PEMAR y PLWVIH March 2013 - 56 pages. 

Annex 2. 12 reportes de capacitación sobre registro único y calidad del dato. 

Annex 3. Monitoring and Evaluation tool. 

Annex 4. Diseño metodológico de colaborativo de calidad del dato. Abril 2014. 

Annex 5. Reporte de capacitación en calidad del dato, historia de éxito y listado de participantes.

Annex 6. TraiNet ConciliaciónF12, FY13, FY14 Q1 y Q2 

Annex 7. USAID Mail - Fwd_ VYC Training 28 June 2013 




                                                                                                   15
                                                                                 Appendix II


Annex 7.1 Visa Compliance, Participant Training and Exchanges_ Policy Procedures, and
              Systems Workshop April 24-25 2014
Annex 8. USAID Mail - Fwd_ TraiNet-VCS Training
Annex 8.1 TraiNet Agenda, May 2014, USAID.Nicaragua
Annex 9. Factsheet




                                                                                         16
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
